           July 8, 2004




                      Statement
                          of
                 Francis E. Reardon
        Deputy Inspector General for Auditing
           Office of the Inspector General
               Department of Defense

                      before the
Subcommittee on Financial Management, the Budget and
                International Security
      Senate Committee on Governmental Affairs
                          on
“Department of Defense FY 2003 Financial Statements”


                Department of Defense
            Office of the Inspector General

                    D-2004-105-T
                                     INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VlRGlNlA 22202-4704




The Honorable Peter G. Fitzgerald
Chairman
Subcommittee on Financial Management,
  The Budget, and International Security
Committee on Governmental Affairs
United States Senate
Washington, D.C. 20510-6250

Dear Chairman Fitzgerald:

       Thank you for your invitation to testify today's "Oversight Hearing on the Federal
Government's 2003 Financial Statement: Improving Accountability of American Taxpayers'
Dollars."

        Being neither an accountant nor an auditor by background, I have endeavored as
Inspector General to hire, train, and promote the very best accountants and auditors available to
enable the Office of Inspector General of the Department of Defense to serve as an engine of
positive change vis-2-vis the Department of Defense's satisfaction of the constitutional duty to
publish "a regular Statement and Account of the Receipts and Expenditures of all public
Money." At the same time, I have endeavored to develop close working relationships with the
Auditors General of the Military Departments, "with a view toward avoiding duplication and
insuring effective coordination and cooperation" (IG Act, Section 8(c)(9)).

        Deputy Inspector General Gene Reardon is the best I have. .Having reviewed his
prepared testimony to your committee today, I would only reiterate that all of the professional
auditors who serve in the Office of Inspector General of the Department of Defense are
committed to do whatever we can to assist the Department in satisfaction of the constitutional
duty to publish "a regular Statement and Account of the Receipts and Expenditures of all public
Money" (U.S. Constitution, Article I, Section 9).

        Of course, should you have any questions or concerns not addressed at your hearing
today, I would be glad to address such questions or concerns in follow-up correspondence or
testimony.

                                      \ \
                                            Sincerely,
Mr. Chairman and Members of the Committee:

Thank you for the opportunity to discuss, first, the status of progress in achieving an
unqualified (clean) audit opinion for the Department of Defense and, second, other areas
of financial management within the Department. The Department’s financial statements
are the most extensive, complex, and diverse financial statements in the Government.
The Department faces financial management problems that are long-standing, pervasive,
and deeply rooted in virtually all operations. These financial management problems have
impeded the Department’s ability to provide reliable, timely, and useful financial and
managerial data to support operating, budgeting, and policy decisions. The problems
have also prevented the Department from receiving an unqualified opinion on its
financial statements.


To address these issues, the Department has undertaken the ambitious task of overhauling
its financial management systems and business processes. Although DoD has initiated a
process to improve the reliability of its financial reporting and actions to correct
previously reported weaknesses, most financial statements today remain unreliable and
much work needs to be done. However, we are encouraged by the many current
initiatives led by the Office of the Under Secretary of Defense (Comptroller/Chief
Financial Officer) and senior financial managers within the DoD Components to correct
long-standing problems in order to achieve a favorable audit opinion by FY 2007. We
believe there is a chance of reaching this goal; however, what is most encouraging is the
effort being expended to correct the Department’s problems.


In order to adequately support the Department’s goal of an unqualified audit opinion by
FY 2007, we in the Office of the Inspector General put in place plans and actions to
increase our financial auditing staff during the next three years. We also plan to issue
several contracts with independent public accounting firms for financial and systems
audit work as management asserts that their financial data is reliable and ready for audit.
Over the next three years, the Department has reported that they could assert as being
ready for audit over 100 lines, systems, or audit opinions. If the funding for our buildup



                                                                                              1
and contracting efforts is delayed until the Department asserts that the entire financial
statements are reliable and ready for audit, it will be impossible to complete necessary
audit work in a timely manner—thus further delaying a favorable audit opinion on the
U.S. Government Annual Financial Report.


Opinions on Financial Statements for FY 2003

For FY 2003, we issued a disclaimer of opinion for the Department of Defense Agency-
Wide Financial Statements because numerous deficiencies continue to exist related to the
quality of data, adequacy of reporting systems, and reliability of internal controls. We
also issued a disclaimer of opinion on all but two of the nine major DoD reporting entities
included in the Department of Defense Agency-wide Financial Statements requiring an
audit opinion. As in past years, the FY 2003 Military Retirement Fund’s financial
statements received an unqualified opinion. The newly established Medicare Eligible
Retiree Health Care Fund received a qualified audit opinion for FY 2003.


The Department has taken aggressive actions to improve financial management and
reporting during the past several months. However, the Department and we expect no
change in the status of audit opinions for the FY 2004 financial statements for the major
DoD reporting entities to be issued in November 2004.


Internal Control Deficiencies

Issues of reliability, integrity, timeliness, and auditability of financial data continue to
impede our ability to render an opinion on the financial statements. We have reported
those weaknesses to the Department and have also made recommendations to correct
those weaknesses. The Department’s progress in addressing the specific findings and
recommendations made in individual audit reports will be a critical factor in determining
how much financial management improvement actually occurs.


The Department has readily acknowledged that many of its financial management and
feeder systems do not produce adequate data to support various material amounts on the


                                                                                               2
financial statements. As a result of the Department-wide deficiencies in accounting
systems and business practices, the Department is unable to collect and report financial
performance information that is timely, accurate, and reliable. However, DoD is making
progress in correcting and reducing the materiality of the weaknesses. In FY 2002, we
reported 13 material weaknesses for the DoD Agency-wide financial statements.
In FY 2003, corrective actions were taken to reduce major deficiencies related to problem
disbursements and the reported military retirement health benefits liabilities. Let me
briefly discuss the current material internal control weaknesses and the actions needed to
correct these weaknesses.


1. Financial Management Systems. The Department has been unable to collect and
   report financial information that is timely, accurate, and reliable. DoD has numerous
   business systems performing a myriad of tasks, and many of these financial
   management systems do not comply substantially with federal financial management
   system requirements. In addition, there is little standardization across the
   Department. Multiple systems perform the same task, identical data are stored in
   multiple systems, data are manually entered into multiple systems, and there are many
   work-around and off-line records to translate data from one system to another. These
   characteristics limit data integrity and require extensive effort by management to
   compile financial statements. These system deficiencies affect many aspects of
   financial reporting.

   Previously, we have reported—and management has acknowledged—that
   Department financial management systems do not substantially comply with federal
   financial management system requirements, generally accepted accounting principles,
   and the U.S. Government Standard General Ledger at the transaction level.
   Additionally, we have reported that the Department’s financial management and
   feeder systems cannot provide adequate evidence to support various material amounts
   on the financial statements. We have also recommended improvements to the
   Department’s overall management of information technology, and that the
   Department improve the quality of information technology reporting to Congress and



                                                                                           3
   the Office of Management and Budget, which would increase the usefulness of the
   information and demonstrate that the Department was effectively managing
   information technology investments.

   In regard these issues, it is our opinion that that the Department’s effort to address
   weaknesses in financial information systems with the Business Management
   Modernization Plan (BMMP) is a necessary and overdue step. In July 2001, the
   Secretary of Defense established the BMMP to transform and modernize the
   Department’s business and financial processes and systems to optimize the efficiency
   and effectiveness of all DoD business processes––financial, procurement, logistical,
   and personnel. The overall goal is to transform the Department's business operations
   so that accurate, reliable, and timely business information is available on a routine
   basis to support informed decision-making at all levels in the Department. Although
   the BMMP is a long-term approach to the Department’s financial management
   problems, one of the early objectives of the BMMP is to achieve an unqualified audit
   opinion on the FY 2007 DoD Agency-Wide Financial Statements.

   Until the BMMP is in place, the Department will continue to use legacy systems to
   provide data for the FY 2007 DoD Agency-Wide Financial Statements. Even though
   the Department has much work to complete in this area, we believe that continued
   reviews of financial systems that will eventually be replaced or upgraded are
   necessary to ensure that reliable data are available to be transferred to the
   reengineered processes and systems and for effective business management now and
   in the future. Accordingly, we plan to perform, as funding is available, reviews of
   legacy systems to verify that the data in existing systems are reliable. We believe that
   the Department’s efforts are focused on a plan to use BMMP initiatives information
   from legacy systems to deliver auditable information for financial statements.
   However, I again reiterate that audit processes are set up so that we will not expend
   taxpayer dollars unless we believe a favorable opinion can be delivered.


2. Fund Balance with Treasury. The FY 2003 DoD Fund Balance With Treasury
   account was approximately 22 percent of reported assets. During the year, more than


                                                                                            4
   $500 billion in funding flowed through the account—an increase from prior years.
   Despite the increase in disbursements, problem disbursements, although significant,
   continued to decline. However, differences continue to exist between the Department
   of Treasury and DoD disbursement records. Last year, we reported that the absolute
   value of the DoD differences was approximately $20.6 billion. The Department has
   obtained legislative permission, which we supported, to clear old transactions prior to
   2001 from its accounts when documentation is no longer available to support the
   transactions. This action should reduce the differences and gives us encouragement
   that the Department is making real progress in improving the reliability of this
   account.

   Because of the number and complexity of the systems within the Department that
   support the Fund Balance With Treasury account, automated reconciliation is not
   possible. In light of these realities, we have recommended that DoD improve the
   reconciliation process and supporting systems as soon as possible. The Department
   and this office, as the responsible auditors, are making it a top priority, pending the
   availability of funds, to validate the reliability of data processed by the systems used
   to support the Fund Balance With Treasury account. Also, we expect both the Army
   and the Air Force to assert that their Fund Balance With Treasury accounts are ready
   for audit in early FY 2005.


3. Inventory. Inventory makes up about 5 percent of the reported assets on the
   Department’s financial statements. The existing inventory valuation method does not
   produce an auditable approximation of historical cost because the associated gains
   and losses cannot be accurately tracked to specific items or purchases. Prior audit
   reports have identified inaccurate inventory records, deficiencies related to existence
   and completeness of inventory, and inaccurate inventory valuation. The Department
   has issued a contract to assist in transitioning inventory accounting to the historical
   cost method, and has established a working group with DoD Components to work
   through the impediments to obtain a favorable opinion by FY 2007. We continue to




                                                                                              5
   work with the Department working group on these extremely complex issues and are
   supporting its efforts to resolve these deficiencies.


4. Operating Materials and Supplies. Operating Materials and Supplies makes up
   about 12 percent of total reported assets on the Department's Balance Sheet.
   Generally accepted accounting principles require that Operating Materials and
   Supplies be expensed as they are consumed. However, DoD accounting systems
   were designed to expense these materials when they are purchased rather than when
   consumed. In addition, significant amounts of Operating Materials and Supplies in
   the possession of contractors are not included in the Operating Materials and Supplies
   account balance. The Department included Operating Materials and Supplies in its
   contract to establish a supportable baseline for Inventory. The contractor is also
   evaluating how the Department can transition from the purchase method to the
   consumption method of accounting and how it can fully account for all of its
   Operating Materials and Supplies. The Department working group for Operating
   Material and Supplies is making progress as they work toward developing a proposed
   valuation methodology for establishing the baseline for historical cost that will
   support the valuation assertion. The final valuation methodology is due in December
   2004, and the Department expects the implementation of the business enterprise
   architecture to correct reported weaknesses by the end of FY 2005. We continue to
   work with the Department to support their effort to develop a strategy to properly
   value and account for Operating Materials and Supplies.

5. Property, Plant, and Equipment (PP&E). Reported PP&E on the FY 2003
   Financial Statements was more than $446 billion, or almost 40 percent of total
   reported assets. The Department has acknowledged that PP&E is not reliably
   reported because legacy property and logistic systems were not designed to capture
   all costs or to calculate depreciation. The Military Departments are in the process of
   correcting weaknesses in property systems identified by auditors and improving
   processes and controls for property systems under development. For example, the
   Navy and the Air Force expect reported real property to be ready for audit during
   FY 2005, and we plan to begin audit coverage as assertions are made. We are also


                                                                                            6
   working with each DoD Component and the General Accounting Office to ensure that
   a baseline for data for real and personal property is accurate and fully supported with
   source documents.

   The task for achieving property balances that are accurately and reliably reported has
   been made much more difficult because of an FY 2003 policy change by the Federal
   Accounting Standards Advisory Board. This policy change requires the cost of
   Military Equipment to be reported on the Balance Sheet rather than as Required
   Supplementary Stewardship Information. The FY 2003 Agency-Wide Balance Sheet
   included a depreciated cost of $325 billion for Military Equipment. We are working
   with the General Accounting Office and the Office of the Under Secretary of Defense
   for Acquisition, Technology, and Logistics to ensure that the Department’s business
   rules, strategy, and approach to implement the new policy will meet generally
   accepted government accounting standards. The Department expects to complete the
   Military Equipment valuation by the end of FY 2006, and we are providing
   continuing audit coverage as they progress.


6. Government-Furnished Material and Contractor-Acquired Material. When it is
   in the best interest of the Government, the Department provides to contractors
   government property necessary to complete contract work. DoD has acknowledged
   that it is unable to comply with applicable requirements for reporting Government-
   Furnished Property and Contractor-Acquired Materials. The cost of DoD property
   and material in the possession of contractors is not reliably reported because of
   changes in accounting requirements and a lack of an integrated reporting
   methodology with industry. We are working with the Office of the Under Secretary
   of Defense (Acquisition, Technology, and Logistics), which is rewriting policy on
   property in the hands of contractors, to ensure that the policy will meet generally
   accepted accounting principles for Federal reporting entities and provide full
   accountability. The Department expects to correct this weakness by the end of
   FY 2005.




                                                                                             7
7. Environmental Liabilities. Reported environmental liabilities are about 4 percent of
   total reported DoD liabilities. DoD has acknowledged that environmental guidance,
   inventory of ranges and operational activities, and audit trails are incomplete, and that
   it has not recognized unamortized clean-up costs associated with PP&E. Our audit
   report D-2004-0080, “Environmental Liabilities Required to be Reported on the
   Annual Financial Statements,” May 5, 2004, showed that Army environmental
   estimates were unreliable because Army activities did not have effective controls in
   place to ensure adequate audit trails and documentation for supporting estimates.
   Furthermore, Army activities did not comply with established guidance when
   developing estimates and effective quality control programs had not been established.
   The Army has initiated actions to improve those controls and is also implementing a
   new feeder system to reduce the possibility of errors. The Deputy Under Secretary
   of Defense (Installations and Environment) has agreed to implement guidance to
   improve the development, recording, and reporting of environmental liabilities. The
   Military Departments expect all deficiencies to be corrected during FYs 2004 through
   2006, and we will conduct audits as they assert that major portions of environmental
   liabilities are ready.


8. Intragovernmental Eliminations and Other Accounting Entries. DoD
   acknowledges that it makes unsupported adjustments with its trading partners because
   of the inability to reconcile most intragovernmental transactions with its trading
   partners. In addition, DoD acknowledges that it makes material amounts of
   unsupported accounting adjustments. The number and amount of unsupported
   adjustments have continued to decrease because the Department took corrective
   actions based on audit recommendations to improve the documentation supporting
   accounting adjustments. However, unsupported adjustments related to the inability to
   identify trading partners continue to be a major weakness. The Department of the
   Treasury is implementing a new Intragovernmental Management Control Plan to
   address this Government-wide material weakness. As part of our planned audit
   procedures for FY 2004, we will determine whether DoD complied with the plan’s
   new requirements. The Department expects to be able to reconcile intragovernmental



                                                                                          8
   transactions and resolve the material weaknesses related to intragovernmental
   eliminations by the end of FY 2006.


9. Statement of Net Cost. Many of the Department’s financial systems and processes
   were not designed to collect and record financial information on a full accrual
   accounting basis as required by generally accepted accounting principles. Therefore,
   transactions are generally recorded on a cash and budgetary basis. In addition, costs
   cannot be accumulated for major programs based on performance measures as
   required by the Government Performance and Results Act because current financial
   processes and systems do not capture and report this type of cost information. The
   Department has undertaken efforts to determine the actions required to bring its
   financial and non-financial feeder systems into compliance with generally accepted
   accounting principles. We are waiting for new systems and methodologies to be
   implemented before performing extensive audit work in this area -- the Department is
   aware of its deficiencies and is focusing on the most effective ways to make
   improvements. The Department has stated that the weaknesses will be corrected by
   the end of FY 2006.


10. Statement of Financing. The Department has acknowledged that it is unable to
   reconcile budgetary data to net costs. Specifically, budgetary data are not in
   agreement with proprietary expenses and capitalized assets. DoD disclosed in the
   notes to the FY 2003 financial statements that the Statement of Financing was
   adjusted by a net of $12.5 billion to match the Statement of Net Costs. Also, the
   Department presented the Statement of Financing on a combined basis instead of a
   consolidated basis as required by the Office of Management and Budget because the
   Department is unable to perform the required intragovernmental eliminations. The
   current Treasury initiatives, when implemented, should help eliminate unsupported
   adjustments related to intragovernmental transactions. The Department expects that
   the implementation of the business enterprise architecture will correct this material
   weakness by the 4th quarter of FY 2006.




                                                                                           9
Congressional Guidance

Section 1008 of the National Defense Authorization Act for FY 2002 directed the Office
of the Inspector General of the Department of Defense, when auditing the year-end
financial statements, to perform only the minimum audit procedures required by auditing
standards when management acknowledges that the financial statements are unreliable.
We have long advocated that resources that are already scarce should not be expended to
conduct complete audits that produce only a disclaimer of opinion at year-end. However,
we strongly support and believe there are benefits to be gained by performing limited
audits of current financial systems because data reliability must be ascertained before any
opinion can be rendered.

We agree with the rationale behind Section 1008 and we have complied with those
requirements in performing our audits of the FY 2003 DoD Agency-Wide Financial
Statements and the nine other required reporting entities. We limited our audit
procedures related to audit opinions commensurate with management representations that
we received from the Office of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer and the Military Departments. However, as the Department asserts
that financial data is ready for audit, we must provide the required audit coverage, which
will require additional resources.


The financial management weaknesses acknowledged by management during previous
years and for FY 2004 enabled us to limit our audit work to issue disclaimers of opinion.
We recognize, and have advised DoD management, that additional weaknesses may be
identified in the future when we initiate detailed financial statement audit work in
response to management’s improved representations. However, as the Department
continues to take corrective actions and improve systems and controls, we need to have
trained audit staff available to promptly validate these actions in order to meet the
Department’s ambitious goal of achieving a favorable opinion for FY 2007. Our joint
strategy with the Department is for us to audit specific lines items and financial
statements as they become ready for audit, rather than waiting until all of the
Department’s problems are corrected, and is the best way to achieve optimal result.


                                                                                         10
Cooperation with DoD Management

I would like to mention that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, as the Department’s Chief Financial Officer, and his staff have a
refreshing and unique open door policy to the OIG. The Office of the Inspector General,
along with the Under Secretary of Defense (Comptroller)/Chief Financial Officer, realize
that the lack of a favorable opinion on the Department’s financial statements is a major
impediment to the U.S. Government receiving an unqualified opinion on its annual
financial statements. Without compromising our status as the independent auditor, the
Inspector General, at the request of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, is actively participating in discussions with senior leadership within the
Department and within the Government on ways to help the Department achieve a
favorable audit opinion. Additionally, we now participate in joint quarterly reviews of
the Department’s financial statements with the Under Secretary of Defense
(Comptroller)/Chief Financial Officer and senior financial managers of the Military
Departments to identify material issues that impact the quality of the Department’s
financial reporting process. It is on the basis of these meetings and our further
involvement in more than 20 departmental audit committees that we are pressing forward
with plans to build up our staff and resources to audit the Department as it prepares for a
clean opinion in FY 2007.


In addition, I serve as a permanent independent advisory member on the recently
established Financial Improvement Executive Steering Committee that includes the
Deputy Chief Financial Officer, the Deputy Comptroller (Program and Budget), and the
Director, Defense Finance and Accounting Service. The committee monitors and directs
the progress of the DoD Financial Improvement Plan process. This committee also
reviews, approves, and prioritizes those financial statement line items that DoD
Components assert are candidates for assessment and audit.


The Under Secretary of Defense (Comptroller)/Chief Financial Officer has just finalized
the financial improvement initiatives business rules to guide IG DoD and DoD


                                                                                           11
Components in determining when financial statements or line items are ready for audit.
These business rules are designed to ensure that financial audits of specific line items and
specific financial statements for DoD Components are only initiated when the specific
Component has asserted that known deficiencies have been corrected. These business
rules will help ensure that Government funds are used efficiently in compliance with
Section 1008 of the FY 2002 National Defense Authorization Act. Of course, our
ongoing audits to reduce waste and mismanagement within the Department are
continuing.

Impact of the Inability to Prepare Auditable Financial Statements

The weaknesses that affect the auditability of the financial statements also impact other
DoD programs and operations and contribute to waste, mismanagement, and inefficient
use of DoD resources. These weaknesses affect the safeguarding of assets and proper use
of funds and impair the prevention and identification of fraud, waste, and abuse.

       Purchase Cards

You have expressed an interest in our work on the purchase cards and Government
charge cards and we have done, and are doing, considerable work in these areas. Office
of the Inspector General of the Department of Defense (OIG) personnel testified before
the Senate Committee on Governmental Affairs on April 28, 2004, on “How to Save the
Tax Payers Money Through Prudent Use of the Purchase Card.” At that hearing, we
reported that purchase cards accounted for 25 percent of the purchase actions made in the
Department in FY 2003. We presented the results of three OIG DoD audit reports issued
in FYs 2003 and 2004, which identified management control problems with the use of
purchase cards. At that hearing, we provided some of the following examples of
questionable, inappropriate, or fraudulent purchases.

   •   One cardholder used the purchase card to make 59 fraudulent purchases totaling
       more than $130,000. The purchases included two automobiles, a motorcycle, and
       cosmetic enhancements done through surgery. (“Summary Report on the Review
       of Selected DoD Purchase Card Transactions,” June 27, 2003, [IG DoD Report



                                                                                            12
       No. D-2003-109])

   •   A DoD official was convicted of theft of Government property stemming from
       her use of the Government charge card to make about $1.7 million of fictitious
       purchases from a fictitious firm. (“Selected Purchase Card Transactions at
       Washington Headquarters Services and Civilian Personnel Management Service,”
       October 16, 2003, [IG DoD Report No. D-2004-002])

   •   Approximately $1.1 million of Space and Naval Warfare Systems Command,
       New Orleans Information Technology Center purchases were questionable
       because there was no obvious mission need for the items purchased.
       Questionable items purchased included six bicycles costing $2,393 to be used by
       interns from New Orleans University in a non-existent intern program; three
       global positioning systems costing about $1,720 for the Director to use because he
       routinely got lost when he went on travel; and luggage costing about $700 that
       was purchased because the Director and his Deputy traveled frequently and
       needed to carry briefing papers. (“Purchase Card Use at the Space and Naval
       Warfare Systems Command, Information Technology Center, New Orleans,
       Louisiana,” November 14, 2003, [IG DoD Report No. D-2004-016])


We also discussed using data mining techniques and working with the Department to
reduce costs related to prices on purchase card buys. However, this is an area where the
Administrator of the General Services Administration (GSA) should take the lead. We
feel that GSA, as a minimum, should establish a central data repository of charge card
transactions for use by all Governmental agencies. This would eliminate or reduce costs
for both the banks and Governmental agencies and ensure data could be shared. The
central data repository could then be used to identify spending trends and help in the
development of discounts across the Government. In addition, by having the data in one
place, oversight agencies like GAO and the Offices of the Inspector General throughout
the Government would not have to make additional queries of banks to obtain transaction
information.




                                                                                         13
We also suggested that a Center of Excellence be established by the Government under
GSA or associated with an educational institution staffed with experts who perform
continuous research, develop training for users to be more effective buyers, negotiate
point of sale discounts for all Federal agencies, and develop data mining tools and
techniques to help all Federal agencies improve management of charge cards and, thus,
reduce the potential for fraud, waste, and abuse.


Subsequent to the April 28, 2004, hearing, our office issued an additional report on
purchase cards: “Controls Over Purchase Cards at the Naval Medical Center San Diego,”
June 29, 2004, (IG DoD Report No. D-2004-096). We found no evidence of fraud.
However, 52 of the 65 transactions we reviewed, valued at $53,000, had one or more
internal control weaknesses. Additionally, billing cycle limits were $1.9 million higher
than necessary for 18 of the 32 cardholders reviewed.

       Travel Cards

We, along with GAO, also performed audit work on the travel card program. IG DoD
Report No. D-2004-083. (“Management of the Centrally Billed Travel Card Program at
Defense Agencies,” May 24, 2004) reported the following:


   •   Controls over centrally billed travel accounts were adequate at the Joint Chiefs of
       Staff, Defense Commissary Agency, Defense Security Cooperation Agency, and
       the National Defense University based on a review of documentation for the
       selected transactions. However, improvements were needed at the Travel Card
       Program Management Office and at Washington Headquarters Services.


   •   The Travel Card Program Management Office did not monitor centrally billed
       travel accounts. As a result, credit limits were about $457 million higher than
       needed, and the Department was placed at increased risk for financial loss.


   •   Washington Headquarters Services did not properly establish and appropriately
       use a centrally billed travel account. For example, the Budget and Finance


                                                                                         14
       Directorate opened five travel transaction accounts instead of using purchase
       cards and did not have adequate supporting documentation for purchases. As a
       result, non-travel related transactions, totaling about $11,600, were processed on
       three of the five accounts. These transactions included purchases for art supplies,
       flowers, pen gift sets, receptions and meals, and a forklift. Travel-related charges
       of about $158,400 were made and approved on these accounts without proper
       documentation. Additionally, the Director, Budget and Finance, Washington
       Headquarters Services did not always use the contracted Commercial Travel
       Office to provide required travel services. As a result, the Director, Budget and
       Finance violated the commercial travel office contract and the Joint Travel
       Regulation, and incurred excess travel expenses of about $44,000.


We are currently working with the DoD Program Management Office for purchase cards
to assist them in developing data mining indicators and tools to identify potentially
fraudulent charges and situations discussed in these reports, so situations of this nature
can be eliminated. We also are continuing to work with both the Purchase and Travel
Card Program Management Offices to improve the programs, by reducing the financial
risk to the Government, and offering recommendations to improve the Federal Managers
Financial Integrity Act controls.


       Other Audit Work

The Military Service audit agencies and we have also performed audits in many other
areas. During the last semiannual report to Congress covering the six months ended
March 31, 2004, the OIG DoD and the Military Service audit agencies issued 251 reports
that identified opportunities for nearly $1 billion in monetary benefits. These reports and
more current reports issued during the past three months show our commitment to
improving financial management and efficiency within the Department and reducing
fraud, waste, and abuse at all levels. For example:

   •   The Air Force Audit Agency reported that a lack of system interfaces, data edits,
       and the inability of systems to identify certain types of transactions, in addition to



                                                                                             15
    needed policy changes, contributed to the Air Force granting $96.3 million in
    inappropriate credits (that is, customer refunds) to DoD customers who turned in
    spare assets to supply. The inappropriate credits deplete cash resources. By
    implementing the recommended corrective actions, the working capital fund’s
    recurring negative cash position could be improved by at least $578 million over
    the 6-year Future Years Defense Plan. (Air Force Audit Agency, “Credit Returns
    Management,” October 22, 2003, [F2004-0001-FC4000])

•   Lack of priority, attention, and resources and noncompliance with existing
    policies caused delays in closing contracts. At the Defense Finance and
    Accounting Service-Columbus, 1,084 contracts valued at $2.9 billion remained
    open for 2 to 9 years while awaiting financial adjustment. The high numbers of
    outstanding contracts awaiting financial adjustments, including adjustments to
    resolve negative unliquidated obligations and potential overpayments, jeopardize
    DoD efforts to prepare financial information and statements that are auditable.
    (“Contracts Awaiting Financial Adjustments at the Defense and Accounting
    Service Columbus,” October 24, 2003, [IG DoD Report No. D-2004-004])

•   Lack of procedures to prevent manually processed invoices from being paid
    earlier than allowed by the Prompt Payment Act caused $1.6 billion in payments
    to contractors to be made more than seven days prior to the due date. This
    potentially cost the U.S. Treasury an estimated $1.5 million in lost interest.
    (“Early Payments of Invoices by the Defense Finance and Accounting Service
    Columbus,” March 12, 2004, [IG DoD Report No. D-2004-058])

•   The Defense Logistics Agency was purchasing new property items to fill
    requisitions while the same property items, in new or unused condition, were
    being disposed of and sold to a commercial contractor. DoD could have avoided
    costs of about $9.2 million if the property items were used to fill open
    requirements instead of disposing of them. DoD could also increase revenues up
    to $18.7 million if certain disposed items were sold back to DoD by the
    commercial contractor before being placed on auction. (“Defense Reutilization


                                                                                      16
       and Marketing Services Commercial Venture Contracts for Privatization of the
       DoD Surplus Sales Program,” December 30, 2003, [IG DoD Report
       No. D-2004-037])

   •   An audit of Navy controls over material designated for or sent to the Defense
       Reutilization and Marketing Service showed that essential management controls
       needed improvement. As a result, $39 million in acquisition costs of Government
       property that was not recorded on accountable supply records was vulnerable to
       loss or undetected theft, and resources could be expended unnecessarily in
       researching erroneous disposal transactions. (“Navy Controls Over Materiel Sent
       to Defense Reutilization and Marketing Offices,” June 24, 2004,
       [IG DoD Report No. D-2004-095])

In addition, we are currently working on several audits to identify and detect areas of
fraud, waste and abuse, and mismanagement and to improve overall efficiency and
effectiveness within the Department. For example,


   •   Cash Management. We are auditing, at management’s request, the cash
       management of the Foreign Military Sales Trust Fund.
   •   Contract Financing Payments. We are reviewing DoD accounting policy and
       procedures to determine whether they properly record and account for contract
       financing payments.
   •   Erroneous Payments. We are determining whether DoD identified and reported
       all programs and activities that may be susceptible to significant erroneous
       payments.
   •   Overpayment to Deceased Retirees. We are reviewing the process used by the
       Military Retirement Fund to suspend the personnel accounts of suspected
       deceased retirees upon receipt of a death notice and to recover any overpayments
       once a death is confirmed.
   •   Prompt Pay. We are reviewing DFAS Columbus vendor pay processes to
       determine whether they are in compliance with the Prompt Payment Act and DoD
       disbursing policies.


                                                                                          17
   •   Charge Cards. We have on-going projects on convenience checks, purchase
       cards, and premium travel. In addition, we are planning additional efforts in FYs
       2005 through 2009 on the charge cards under the SmartPay contract.
   •   Vendor Pay. We are reviewing the Air Force General Fund vendor pay
       disbursement cycle to assess internal controls and compliance with laws and
       regulations.

Conclusion

As part of the effort to move forward and improve systems and business processes, the
Department’s leadership has provided increased access and cooperation to the OIG
during the financial statement preparation and audit process. We especially want to thank
the Under Secretary of Defense (Comptroller)/Chief Financial Officer and his staff for
their relentless pursuit of the strategies needed to expedite the correction of the long-
standing problems preventing the Department from receiving a favorable audit opinion.
This strong leadership is the key element to successful financial management reform. We
support the Department’s commitment to successfully complete the numerous ongoing
initiatives, and believe the Department is committed to continue to improve its systems,
processes, and internal controls to ensure that financial information is accurately recorded
and reported. The only viable approach to achieving a favorable audit opinion by
FY 2007 is to provide incremental funding to audit individual line items and financial
statements for each DoD Component when management asserts that deficiencies have
been corrected. If funding for audit support to validate the Department’s progress is not
provided, the goal of achieving a favorable audit opinion by FY 2007 may be further
delayed.


Thank you for considering the views of the Office of the Inspector General on financial
management within the Department of Defense. This concludes my testimony.




                                                                                            18
